c
i

'

No. 19-6054

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
ROBERT FUSCO,
Petitioner-Appellant,
v.

TONY MAYS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Feb 11, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: READLER, Circuit Judge.
Robert Fusco, a Tennessee prisoner proceeding pro se, appeals the district court’s judgment
denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. He has filed an
application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b)(2).
In 2009, a Tennessee jury convicted Fusco of two counts of especially aggravated
kidnapping, and one count each of conspiracy to commit aggravated robbery, conspiracy to
commit aggravated kidnapping, attempted aggravated robbery, and aggravated burglary. The trial
court imposed an effective 65-year prison sentence. The Tennessee Court of Criminal Appeals
affirmed Fuseo’s convictions and sentence on direct appeal, except that it remanded the matter to
the trial court for the entry of corrected judgments to reflect merger of Fusco’s conspiracy
convictions. State v. Fusco, No. M2010-01724-CCA-R3-CD, 2012 WL 368224, at *38 (Tenn.
Crim. App. Feb. 3, 2012). The Tennessee Supreme Court subsequently vacated the Tennessee
Court of Criminal Appeals’ decision and remanded for reconsideration in light of State v. White,
362 S.W.3d 559 (Tenn. 2012). State v. Fusco, No. M2010-01724-SC-R11-CD (Tenn. May 23,
2012) (per curiam). Upon remand, the Tennessee Court of Criminal Appeals again affirmed
Fusco’s convictions and sentence in all respects except that it remanded to the trial court for the

SJ

No. 19-6054
-2-

entry of corrected judgments to reflect merger of Fusco’s conspiracy convictions. State v. Fusco,
404 S.W.3d 504, 549 (Term. Crim. App. 2012), perm. app. denied, No. M2012-01068-SC-R11CD (Term. Apr. 11, 2013) (per curiam). Fusco did not petition the United States Supreme Court
for a writ of certiorari.
On March 31, 2014, Fusco filed an unsuccessful state petition foTpost-convicfioh relief.”
The Tennessee Court of Criminal Appeals affirmed the trial court’s denial of the post-conviction
petition, Fusco v. State, No. M2016-00825-CCA-R3-PC, 2017 WL 6316621, at *10 (Term. Crim.
App. Dec. 11, 2017), and Fusco did not timely seek permission to appeal to the Tennessee Supreme
Court. On March 5, 2018, Fusco attempted to file a delayed application for permission to appeal
to the Tennessee Supreme Court, but his application was returned to him because the Court’s
mandate had already issued.
On June 20, 2018, Fusco filed a § 2254 petition, in which he raised four grounds for relief.
The respondent moved to dismiss the petition as untimely. Fusco opposed the respondent’s motion
to dismiss, arguing that he was entitled to equitable tolling. The district court granted the
respondent’s motion, concluding that equitable tolling did not apply, and declined to issue a CO A.
Fusco now seeks a COA on all four grounds for relief that he raised in his habeas petition.
A COA may be issued “only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2), Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). In
order to be entitled to a COA, the movant must demonstrate “that jurists of reason could disagree
with the district court’s resolution of his constitutional claims or that jurists could conclude that
the issues presented are adequate to deserve encouragement to proceed further.” Miller-El, 537
U.S. at 327. When the district court denies a habeas petition on procedural grounds, a COA should
issue “when the prisoner shows, at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Slack v. McDaniel,
529 U.S. 473, 484 (2000).

No. 19-6054
-3-

Reasonable jurists could not debate the district court’s procedural ruling that Fusco’s
habeas petition was time-barred. Pursuant to the Antiterrorism and Effective Death Penalty Act
of 1996 (“AEDPA”), a federal habeas corpus petition is subject to a one-year statute of limitations
that begins to run from the latest of four possible circumstances. 28 U.S.C. § 2244(d)(1). Here,
the statute of limitations began to run from “the date on which the [state court] judgment became-'
final by the conclusion of direct review or the expiration of the time for seeking such review.” 28
U.S.C. § 2244(d)(1)(A). None of the other three circumstances apply in this case. See 28 U.S.C.
§ 2244(d)(l)(B)-(D). The ninety-day period during which a petitioner may seek review of his
conviction in the United States Supreme Court is included in the direct review process, and the
statute of limitations will not begin to run until that time has expired. Lawrence v. Florida, 549
U.S. 327, 333 (2007).
The Tennessee Supreme Court denied Fusco leave to appeal his convictions and sentence
on April 11, 2013. The AEDPA’s statute of limitations started running ninety days later, on July
11, 2013, when Fusco’s time to petition the United States Supreme Court for a writ of certiorari
expired. See Bronaugh v. Ohio, 235 F.3d 280, 283 (6th Cir. 2000). The statute of limitations
tolled on March 31, 2014, when Fusco filed his petition for post-conviction relief. See 28 U.S.C.
§ 2244(d)(2). By that time, 263 days had elapsed from the limitations period. The state collateral
review process was completed on February 9, 2018, which was sixty days after the Tennessee
Court of Criminal Appeals affirmed the trial court’s denial of Fusco’s post-conviction petition on
December 11, 2017. See Tenn. R. App. P. 11(b); see also Gonzalez v. Thaler, 565 U.S. 134, 150
(2012). The statute of limitations started running the next day, see Scarber v. Palmer, 808 F.3d
1093, 1095 (6th Cir. 2015), and expired 102 days later, on May 23, 2018. Fusco did not file his
habeas petition until June 20,2018—nearly one month after the expiration of the AEDPA’s statute
of limitations.
Fusco argued that he was entitled to equitable tolling. The AEDPA’s limitations period
may be equitably tolled when a petitioner shows: “‘(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary circumstance stood in his way’ and prevented timely

No. 19-6054
-4-

filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace v. DiGuglielmo, 544 U.S.
408, 418 (2005)). “The party seeking equitable tolling bears the burden of proving he is entitled
to it.” Robertson v. Simpson, 624 F.3d 781, 784 (6th Cir. 2010) (citing Griffin v. Rogers, 308 F.3d
647, 653 (6th Cir. 2002)).
The district court determined, in part, that Fusco failed to show that some extraordinary
circumstance prevented him from filing a timely habeas petition. Reasonable jurists could not
debate that determination. In support of his equitable-tolling argument, Fusco noted that on March
5,2018—nearly three months after the Tennessee Court of Criminal Appeals had affirmed the trial
court’s denial of his petition for post-conviction relief—he gave his application for permission to
appeal to the Tennessee Supreme Court to prison officials for mailing. He then noted that, on
April 9, 2018, his unfiled application for permission to appeal was returned to him. Fusco argued
that, during that timeframe, he was under the impression that his application had been filed, thus
tolling the AEDPA’s limitations period. But even accepting Fusco’s contentions at face value, he
still had forty-four days to file a timely habeas petition after his unfiled application was returned
to him on April 9, 2018.
Fusco also argued that his transfer to a different prison on January 11, 2018, subsequent
placement in segregation, and loss of his property and legal materials prevented him from filing a
timely habeas petition. But Fusco did not explain how the loss of his property or legal materials
delayed the filing of his habeas petition. See Hall v. Warden, Lebanon Corr. Inst., 662 F.3d 745,
751 (6th Cir. 2011). This is especially true because Fusco’s family retained an attorney to aid
Fusco in the preparation of his habeas petition. Although Fusco argued that his attorney did not
deliver the completed habeas petition to him until June 20, 2018, an attorney’s misunderstanding
of a filing deadline is generally not grounds for equitable tolling. Holland, 560 U.S. at 651-52;
Lawrence, 549 U.S. at 336; Jurado v. Burt, 337 F.3d 638, 644 (6th Cir. 2003).
Finally, a petitioner is entitled to equitable tolling if he can make a credible showing of
actual innocence. See McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). Fusco did not claim that
he was actually innocent in his habeas petition, nor did he submit any new evidence to support a

, '}

No. 19-6054
-5credible claim of actual innocence. Consequently, reasonable jurists could not debate the district
court’s conclusion that Fusco was not entitled to equitable tolling based on a credible showing of
actual innocence.
Accordingly, Fusco’s COA application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
ROBERT FUSCO,

)
>
)
)

Petitioner,
v.

)
)

JONATHAN LEBO, Warden,

)
)
)

Respondent.

Case No. 3:18-cv-00602
Judge Trauger

MEMORANDUM AND ORDER
I.

Introduction

The petitioner, Robert Fusco, is a state prisoner incarcerated at the Riverbend Maximum
Security Institution in Nashville, Tennessee. He tigs filed a pro se petition for the writ of habeas
corpus pursuant to 28 U.S.C. § 2254 (Doc. No. 1) and has paid the filing fee.
According to the petition, the petitioner was convicted of especially aggravated
kidnapping, conspiracy to commit aggravated robbery, conspiracy to commit aggravated
kidnapping, attempted aggravated robbery, and aggravated burglary in Montgomery County
Criminal Court on September 24, 2009, and received an effective 65-year sentence. (Doc. No. 1 at
1.) The petitioner now challenges the legality of his conviction and sentence, claiming among other
things, that he was denied the effective assistance of counsel at trial. (Doc. No. 2 at 52-101.)
Upon initial review of the petition, the court directed the respondent to file the state court
record and to respond to the petitioner’s claims. (Doc. No. 8.) On January 22,2019, the respondent
filed a Motion to Dismiss the petition as untimely (Doc. No. 12) and a supporting Memorandum
of Law (Doc. No. 13.) In response to the motion to dismiss, the petitioner filed a “Memorandum
of Law and Facts in Support of Equitable tolling of limitations” (Doc. No. 14), to which the
respondent has replied (Doc. No. 16).

E>

Case 3:18-cv-00602 Document 17 Filed 08/16/19 Page 1 of 10 PagelD #: 4313

Having carefully considered these pleadings and the record, it appears that an evidentiary
hearing is not needed in this matter. See Smith v. United States, 348 F.3d 545, 550 (6th Cir. 2003)
(an evidentiary hearing is not required when the record conclusively shows that the petitioner is
entitled to no relief). Therefore, the court shall dispose of the petition as the law and justice require.
Rule 8, Rules Gov’g § 2254 Cases.
II.

Procedural History

After appealing his 2009 conviction to the Tennessee Court of Criminal Appeals (TCCA),
which affirmed the trial court, the petitioner applied for permission to appeal to the Tennessee
Supreme Court, which vacated the decision of the TCCA and remanded the matter for
reconsideration. The TCCA on remand again affirmed the petitioner’s conviction, State v. Fusco,
404 S. W. 3d 504 (Tenn. Crim. App. 2012), and the Tennessee Supreme Court declined to further
review the case on April 11, 2013. (Doc. No. 11-27.) The petitioner did not seek review in the U.S.
Supreme Court.

A

The petitioner filed a pro se petition for post-conviction relief in state court on April 3,
2014, having submitted it to prison authorities for mailing on March 31, 2014. (Doc. No. 11-28 at
2338, 2345.) The trial court denied the petition after holding an evidentiary hearing. The TCCA
affirmed the trial court’s denial of post-conviction relief in a decision dated December 11, 2017.
Fusco v. State, No. M2016-00825-CCA-R3-PC, 2017 WL 6316621 (Tenn. Crim. App. Dec. 11,
2017). The petitioner did not timely seek permission to appeal to the Tennessee Supreme Court.
In February 2018, he attempted to late-file an application for permission to appeal to the Tennessee
Supreme Court, but his application was returned to him because the Court’s mandate had already
issued. (Doc. No. 14-5.)

Case 3:18-cv-00602 Document 17 Filed 08/16/19 Page 2 of 10 PagelD #: 4314

The pro se petition for writ of habeas corpus under § 2254 was received and filed in this
court on July 2, 2018, after the petitioner purportedly submitted it to prison authorities for mailing
on June 20, 2018. (Doc. No. 1 at 15.)
III.

Analysis
A.

Timeliness of the Petition

Petitions under § 2254 are subject to a one-year statute of limitations. 28 U.S.C.
§ 2244(d)(1); Holland v. Florida, 560 U.S. 631, 635 (2010). In most cases, including the case at
bar, the limitations period runs from “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for seeking such review.” Id.
§ 2244(d)(1)(A). Following the Tennessee Supreme Court’s denial of discretionary review on
April 11, 2013, the petitioner had ninety days in which to take the final step in the direct appeal
process by filing a petition for writ of certiorari in the U.S. Supreme Court. He did not file such a
petition, and so his conviction became final at the conclusion of this ninety-day period, on July 10,
2013. Gonzalez v. Thaler, 132 S. Ct. 641, 653 (2012); Jimenez v. Quarterman, 555 U.S. 113, 120
(2009). The running of the statute of limitations is counted from the following day, July 11, 2013.
See Fed. R. Civ. P. 6(a)(1)(A) (when computing a time period “stated in days or a longer unit of
time . . . exclude the day of the event that triggers the period”); Bronaugh v. Ohio, 235 F.3d 280,
284 (6th Cir. 2000) (applying Rule 6(a)’s standards for computing periods of time to habeas filing).
The one-year statute of limitations thus began to run nearly five years prior to the filing of
this action. However, “[t]he time during which a properly filed application for State post­
conviction or other collateral review ... is pending shall not be counted toward” the limitations
period. 28 U.S.C. § 2244(d)(2). The petitioner filed his pro se state post-conviction petition on

1
The petition and a supporting memorandum of law arrived in this court in a certified,
priority mailing postmarked in Madison, Alabamaon June 28, 2018. (Doc. No. 1 at 20.)

Case 3:18-cv-00602 Document 17 Fi

6

1/16/19 Page 3 of 10 PagelD #: 4315

March 31, 2014, when he submitted it to prison authorities for mailing. See Tenn. Sup. Ct. R. 28,
§ 2(G) (codifying prison mailbox rule in Tennessee post-conviction cases). The period of statutory
tolling began on that date (263 days after the limitations clock started on July 11, 2013) and
continued until February 9,2018, which was sixty days after the TCCA issued its opinion affirming
the denial of post-conviction relief and the final day that the petitioner could have sought review
in the Tennessee Supreme Court. See Tenn. R. App. P. 11(b) (establishing that an application for
permission to appeal to the Tennessee Supreme Court must be filed “within 60 days after the entry
of the judgment of the . . . Court of Criminal Appeals”); see also Gonzalez, 132 S. Ct. at 653
(confirming that a judgment becomes final when.the time for seeking review with the State’s
highest court expires). With the conclusion of state post-conviction proceedings, the running of
the limitations period resumed. Lawrence v. Florida, 549 U.S. 327, 331-32 (2007).
The limitations clock began to run again on February 10,2018. At that point, the petitioner
had 102 days (365 minus 263)—or until May 2}x, 2018—to file a timely § 2254 petition. He
purports to have submitted his petition to prison authorities for mailing 130 days later, on June 20,
2018. (Doc. No. 1 at 15, 19); see Brand v. Motley, 526 F.3d 921, 925 (6th Cir. 2008) (recognizing
“relaxed filing standard” under which “a pro se prisoner’s complaint is deemed filed when it is
handed over to prison officials for mailing to the court”). At the time the petition was filed, the
petitioner believed that June 20, 2018 was his deadline for timely filing “when given credit for the
90 days within which Mr. Fusco could have appealed to the United States Supreme Court on direct
appeal despite the fact that he did not so appeal.” (Doc. No. 1 at 15.) He now recognizes that his
petition was not timely filed on that date and seeks equitable tolling of the limitations period.
B.

Equitable Tolling

The expiration of the statutory limitations period does not act as a jurisdictional bar to
habeas relief but may be equitably tolled in appropriate cases. Holland, 560 U.S. at 645-49. The
4&

Case 3:18-cv-00602 Document 17 Filetru8/16/19 Page 4 of 10 PagelD #: 4316

doctrine of equitable tolling is used sparingly and is typically applied “only when a litigant’s failure
to meet a legally mandated deadline unavoidably arose from circumstances beyond that litigant’s
control.” Jurado v. Burt, 337 F.3d 638, 642 (6th Cir. 2003) (citing Graham-Humphreys v.
Memphis Brooks Museum of Art, 209 F.3d 552, 560-61 (6th Cir. 2000)). It js the petitioner’s
burden to show that he is entitled to equitable tolling, Griffin v. Rogers, 308 F.3d 647, 653 (6th
Cir. 2002), a burden he may carry by showing “(1) that he has been pursuing his rights diligently,
and (2) that some extraordinary circumstance stood in his way and prevented timely filing.”
Holland, 560 U.S. at 649; see also Stiltner v. Hart, 657 F. App’x 513, 520 (6th Cir. 2016). In this
case, the petitioner fails to carry his burden on either front.
In his memorandum in support of equitable tolling (Doc. No. 14), the petitioner asserts that
he had stored all of his legal documents in the ld\v library of the Morgan County Correctional
Complex (MCCX) during his incarceration there. {Id. at 5.) He states that, when he received the
December 11, 2017 decision of the TCCA affirming the denial of post-conviction relief, he knew
he had “a tight deadline” to file his application for review in the Tennessee Supreme Court, and so
he took the necessary documents from the library to-his cell so that he could work on his application
without interruption. {Id.) On January 10, 2018, the petitioner was transferred from MCCX. {Id. at
6.) When he arrived at West Tennessee State Prison (WTSP) the next day, he was placed in
administrative segregation pending investigation of an incident that occurred at MCCX. {Id; Doc.
No. 14-1.) During his transfer from MCCX to WT£P, the petitioner’s personal property and legal
documents were lost, and in response to his inquiry of February 5, 2018, “he was basically told
that his property has been disposed of.” (Doc. No. 14 at 6-7.) The petitioner remained in
administrative segregation at WTSP until April 20, 2018, when he was moved to disciplinary
segregation based on multiple violations of prison rules. (Doc. No. 14 at 8-9; Doc. No. 14-7; Doc.
No. 15 at 7.)

Case 3:18-cv-00602 Document 17 Filed 08/16/19 Page 5 of 10 PagelD #: 4317

While he was in administrative segregation, the petitioner drafted (and had a clerk in the
prison law library type) a “Motion to Accept Late Filed Application” for permission to appeal to
the Tennessee Supreme Court, as well as a “thorough” application for permission to appeal
apparently numbering some 62 typed pages. (Doc. No. 14 at 7; Doc. No. 14-5.) These documents
were submitted to prison officials for mailing on March 5,2018 and were received in the Tennessee
Supreme Court on March 7, 2018. (Doc. No. 14-5.) Under a cover letter dated that same day
regarding “Filings received recently in your previous case,” the Tennessee Office of the Clerk of
the Courts returned these filings to the petitioner, advising him to “see the copy of the mandate
that was sent to you on February 13, 2018.” (Doc.,No. 14-5 at 2.) However, the petitioner claims
he did not receive these returned documents until April 9, 2018, in an envelope postmarked April
5, 2018.2 (Doc. No. 14 at 7; Doc. No. 14-4 at 2.)
Meanwhile, the petitioner’s family had engaged a lawyer, Mr. Gary L. Anderson, to assist
with the composition of a federal petition for the writ of habeas corpus. Under a cover letter dated
May 23,2018, Mr. Anderson provided the petitioner with the draft petition and a stamped envelope
for mailing the signed petition to this court. (Doc. No. 14-6 at 5.) Unbeknownst to Mr. Anderson
or the petitioner, May 23, 2018 was the deadline for filing a timely habeas petition. After the
petitioner called Mr. Anderson’s office to object to typographical errors and the brevity of the draft
in

petition, he received a corrected draft in the mail on June 20, 2018, which he “immediately signed
and submitted to prison officials for mailing.” (Doc. No. 14 at 8; see Doc. No. 14-6 at 7-9.)
Although Mr. Anderson’s June 18, 2018 letter to the petitioner advised that “courts are more
receptive to short and concise arguments, like those I made in your writ” (Doc. No. 14-6 at 7), the

2
As the respondent notes (Doc. No. 16 at 3 n.l), the envelope the petitioner refers to bears
the return address of the Tennessee Attorney General’s Office, rather than the address of the
Tennessee Supreme Court Clerk’s Office. (Doc. ,14-4 at 2.)
Case 3:18-cv-00602 Document 17 Fi

'■6BI16I19 Page 6 of 10 PagelD #: 4318

petitioner also filed a memorandum of law in support of the petition that consisted of 102 typed
pages.
The petitioner argues that the foregoing shows that he was diligent in pursuing his rights
and-that.he was prevented from timely filing in this court due to the extraordinary circumstances
of his placement in segregation; the loss of his legal materials; the lack of prompt notice from the
Tennessee Supreme Court that his attempt to late-file an application for permission to appeal had
C'

been rejected; and the need for Mr. Anderson “to obtain the complete record necessary to research
his claims thoroughly and set forth his arguments,” “given that prisoners have only one chance to
file a collateral attack on their conviction.” (Doc. No. 14 at 14.)
Even if the history recounted by the petitioner demonstrates a degree of diligence on his
part, that'diligence was not directed toward filing’ a timely § 2254 petition. While it is unclear
exactly when the petitioner’s family hired Mr. Anderson to assist with his federal filing, Mr.
i

Anderson’s first letter to the petitioner concerning filing in federal court was dated January 12,
2018. (Doc. No. 14-6 at 3.) In early February 2018, the petitioner learned that his legal materials
had been disposed of following his transfer to WTSP, and he was aware that his application for
leave to appeal to the Tennessee Supreme Court was due by February 9, 2018. (Doc. No. 14-5 at
3.) Yet over the month that followed, he chose to pursue a lengthy application for permission to
appeal that he knew was untimely, and he then awaited a ruling from the Tennessee Supreme Court
for another month. It is possible that the petitioner.jnistakenly believed this filing to be necessary
in order to exhaust his state-court remedies. Regardless, despite his allegedly delayed receipt of
the return of his attempted filing, the petitioner still had 44 days in which to file a timely § 2254
petition after he received this return from the appellate court clerk on April 9, 2018. During that
time, the petitioner appears to have waited for Mrv Anderson to provide him with a draft petition.
Tfie^1!g^WOTgrappieBi^tpJiai^-sprothe^^fffdllownpnsSTifti^sadim^e3®MiB®The
7

6

Case 3:18-cv-00602 Document 17 Filed~08/16/19 Page 7 of 10 PagelD #: 4319

icalferfSrsIwl

etl;

Spa

iTl’emorawdum^f^lawr Diligence in the pursuit of every possible theory of state and federal relief,
regardless of the attendant delays does not amount to diligence in the pursuit of the petitioner’s
rights, where he was aware that his right to collateral review was time-limited. See Jurado, 337
F.3d at 644.
Even if the petitioner were deemed to have pursued his rights with due diligence, he has
not demonstrated that “some extraordinary circumstance stood in his way and prevented timely
filing.” Holland, 560 U.S. at 649. He reasonably argued before the Tennessee Supreme Court that,
in the wake of the TCCA’s December 11, 2017 decision on his post-conviction appeal, his January
2018 transfer to WTSP, his placement in segregation, and the loss of his legal materials kept him
from filing his application for permission to appeal by the February 2018 deadline.3 <3ft4H>@M?ron
arrg equitable toilini

vri
rcml

•an:

Ll’SapC-2.ciJ

titionel

ls«to
•, as it relates to his filing in

again, alrwi

this court, the petitioner has not shown that he was prevented from timely filing by some
extraordinary circumstance; he has at best demonstrated that his ability to file a comprehensive
habeas petition was hampered by less-than-ideal circumstances.

“[T]he time period for filing an application for permission to appeal is not jurisdictional in
a case arising from the Court of Criminal Appeals and may be waived by the Supreme Court in
the interest of justice.” Tenn. R. App. P. 11(b). Had the appellate court clerk allowed the filing of
the petitioner’s “Motion to Accept Late Filed Application” (Doc. No. 14-5 at 3-4), the time of its
pendency before the Tennessee Supreme Court would have again tolled the limitations period.
West v. Jackson, No. 18-4166, 2019 WL 2298735, at *2 (6th Cir. Mar. 19, 2019) (citing DiCenzi
V. Rose, 452 F.3d 465,468 (6th Cir. 2006)) (treating motion for delayed appeal, “if properly filed,”
as post-conviction motion). But as it happened, this motion was never pending before the court
since it was returned the same day it was received-ipthe clerk’s office.
8
3

Case 3:18-cv-00602 Document 17 Fil

6 1/16/19

Page 8 of 10 PagelD #; 4320

F^ilfflar1^^^HB^etitipner<eventuallrVMd®liro:n'StrS:,e9ltliP56lTit:y^t5*(fra;

"ngthy'legal

dej^effllg^f^nlsegregat^M^rtimattMfgaii^tCTiaI^tiesPpi»
«*

rt^BSS^®g^^§S^^MSiklk^d%m^7^pgBOT(JlteFC0urt. See Hall v. Warden, Lebanon
Corr. Inst., 662 F.3d 745, 751 (6th Cir. 2011) (pro se status, limited law library access, and lack
of access to trial transcripts are “not the kind of ‘extraordinary circumstance[s]’” that prevent
timely habeas filing). Nor did the lack of prompt notice from the Tennessee Supreme Court that
his attempt to late-file his appeal had been rejected stand in the way of his filing a timely habeas
petition, as discussed above. WMlf^ffi^fifOTIf^serts^i^ffis^limilafi^nPEtlfonlp^filinp^se"
habcai^^TOPTTOecessitateie^attm^rosivtr-wvnaersen^oio

nitherc'omple

con

resiiaTClPiM^Ml^mteSM^piapridm^a^fflSSSiswargumenS' (Doc. No. 14 at 14), HIST
corsespoudence^itlrM!?s?^dCTSOB»r^veals^hayiis*habg§sI^tit4pn^as4n^ctJ,#te9*bgf8fgl,^ff!
Aiaderson*had*completed*hi5*investigati©n«a?ld,^bt§®Kd^l;hrg'l5^ant?,d©cumt:nt§ (Doc. No. 14-6);
nn»TaTOBaAS^aMaMr^^deisomad^edithay»ftlh^mEtitipns6an?b.eyfited?jiomwthc>utideiM:. . .
[and] [t]he Florida exhibits can be submitted at a later date.” (Id. at 8.) As the respondent suggests,
it appears from this correspondence and from the face of the petition that Mr. Anderson knew all
the dates operative in the calculation of the limitations period but was simply mistaken about the
date on which the statute of limitations expired. “Generally, an attorney’s misunderstanding of a
filing deadline is riot grounds for equitable tolling.” Giles v. Beckstrom, 826 F.3d 321, 325 (6th
Cir. 2016). The petitioner has not shown any grounds for deviating from this general rule here.
In sum, the petitioner has failed to carry his burden of showing that his case warrants
equitable tolling, which is only appropriate in circumstances that prevent timely filing and are
“both beyond the control of the litigant and unavoidable with reasonable diligence.” Keeling v.
Warden, Lebanon Corr. Lnst., 673 F.3d 452, 462 (6th Cir. 2012).

Case 3:18-cv-00602 Document 17 Filed 08/16/19 Page 9 of 10 PagelD #: 4321

Finally, the petitioner makes no claim of actual innocence of the charges of conviction,
such that the court could reach the merits of his petition despite its untimeliness. See McQuiggin
v. Perkins, 569 U.S. 383, 392 (2013) (allowing that actual innocence can operate in rare cases as
an “equitable exception to § 2244(d)(1),” rather thjan grounds for tolling).
IV.

Conclusion

In view of its untimely filing, the petition (Doc. No. 1) is DENIED, and this action is
DISMISSED.
“When a federal district court denies a habeas claim on procedural grounds without
addressing the claim’s merits, a certificate of appealability should issue if it is shown that jurists
of reason would find it debatable... whether the district court was correct in its procedural ruling.”
Swantak v. Romanowski, No. 08-CV-10126, 2008 WL 186127, at *2 (E.D. Mich. Jan. 18, 2008)
(citing Slack v. McDaniel, 529 U.S. 473, 484-85 (2000)). Because reasonable jurists could not
o

find it debatable that the court is correct in its procedural ruling under the circumstances presented
here, the court declines to issue a certificate of appealability in this case.
This is the final order in this action. The Clerk MUST enter judgment. Fed. R. Civ. P.
58(b)(1).
It is so ORDERED.
ENTER this 16th day of August 2019.

Aleta A. Trauger
United States District Judge

Case 3:18-cv-00602 Document 17 Filed 08/16/19 Page 10 of 10 PagelD #: 4322

